                 NATIONAL ENDOWMENT FOR THE ARTS

               OFFICE OF INSPECTOR GENERAL


      FINANCIAL MANAGEMENT SYSTEM &
          COMPLIANCE EVALUATION

                                    ON SELECTED
                                   NEA GRANTS TO

             Baltimore Symphony Orchestra, Inc.
                                       Baltimore, MD

                              REPORT NO. SCE-11-02

                                    September 7, 2011




                           REPORT RELEASE RESTRICTION
In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be
posted on the National Endowment for the Arts (NEA) website not later than three (3) days after it is
made publicly available with the approval of the NEA Office of Inspector General.

Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be
considered before this information is released to the public. Furthermore, information contained in
this report should not be used for purposes other than those intended without prior consultation with
the NEA Office of Inspector General regarding its applicability.
                                INTRODUCTION

BACKGROUND

Baltimore Symphony Orchestra (BSO) was founded in 1916 as the only major American
orchestra originally established as a branch of the municipal government. BSO
reorganized as a private institution in 1942. BSO has maintained a vibrant educational
presence throughout the State of Maryland, supporting the local community not only
through concerts and recordings, but also through its commitment to actively giving back
with its education, outreach and mentorship programs.


OBJECTIVE AND SCOPE
The objective of this financial management system and compliance evaluation by the
National Endowment for the Arts (NEA) Office of Inspector General (OIG) is to
determine whether the grant recipient’s financial management system and recordkeeping
complies with the requirements established by the Office of Management and Budget
(OMB) and NEA’s General Terms and Conditions for Grants and Cooperative
Agreements to Organizations (General Terms). In addition, we evaluated the recipient’s
compliance with OMB and NEA guidance for the management of the American
Reinvestment and Recovery Act of 2009 (Recovery Act) funding.

The Recovery Act provided $50 million to the NEA to be distributed in direct grants to
fund arts projects and activities which preserve jobs in the nonprofit arts sector threatened
by declines in philanthropic and other support during the current economic downturn.
Consistent with the language in the Act, eligible projects are generally limited to salary
support and fees for artists or contracted personnel.

The review was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency Quality Standards for Inspections and Evaluations, as applicable.


PRIOR AUDIT COVERAGE
During the past five years, the NEA Office of Inspector General (OIG) has not issued any
audit reports on Federal grants awarded to BSO. As of our site visit on March 1, 2011,
the most recent issued independent auditor’s report on BSO is as of August 31, 2010.
The audit was conducted by Stout, Causey, & Horning, P.A., an independent CPA firm,
which issued an unqualified (clean) opinion. Baltimore Symphony Orchestra, Inc. was
not to subject to the audit requirements of OMB Circular A-133.




                                             1
                          RESULTS OF EVALUATION
Our evaluation concluded that the BSO did not maintain personnel activity reports for the
American Recovery and Reinvestment Act grant number 09-3188-7340. BSO included
unallowable expenditures and did not maintain adequate documentation for in-kind
contributions for grant number 09-3100-7203. BSO also did not have procedures in place
for debarment and suspension and did not have the required Section 504 self-evaluation
on file. Details are presented in the following narrative.

                         FINANCIAL MANAGEMENT
RECOVERY ACT AWARD

The BSO received $50,000 in Recovery Act funds. The BSO complied with the financial
management system and recordkeeping requirements established by OMB and NEA,
such as submitting quarterly reports timely and separately identifying Recovery Act
funds in its financial management system. However, BSO did not maintain personnel
activity (time and attendance) reports as required by United States Office of Management
and Budget (OMB) and NEA for the salary charge to this award. The Special Terms and
Conditions for NEA Awards made under the American Recovery and Reinvestment Act of
2009 states in part:

       recipients must maintain adequate time-and-effort reports (i.e., personnel
       activity reports) when charging a person’s salary in whole or in part to the
       grant.

As a result of not maintaining personnel activity reports, we are questioning salaries and
fringe benefits of $50,000. However, BSO provided documentation addressing this
finding. The documentation will be submitted to Management for a final decision.
Based on Management decision, we will determine if any refund is due to NEA.

We are recommending that BSO develop written policies and implement procedures to
ensure that individual personnel activity reports are maintained, if required, by NEA
General Terms and Conditions.

REPORTED EXPENDITURES

The BSO was awarded Grant No. 09-3100-7203, in the amount of $75,000 with a one-to-
one matching requirement. During our site visit, we were presented with a listing of
expenditures that totaled $3,263,044. The listing included unallowable expenditures for
alcoholic beverages, massages, and flowers, in the amount of $3,315.33 which are
unallowable under OMB Circular A-122, Cost Principles for Non-Profit Organizations.
BSO also included expenditures outside of the grant period totaling $6,898.65 which is
unallowable according NEA’s General Terms.




                                             2
As a result, we reduced allowable expenditures by $10,214 (See Appendix I) bringing the
total allowable expenditures to $3,252,830. Since BSO has more than exceeded the
matching requirement even if such costs are disallowed, we are not requiring any
additional action for grant number 09-3100-7203.

However, for ongoing and future grants, we recommended that the BSO develop written
policy and implement procedures to ensure that only allowable costs are reported on its
Final Financial Report1. Those procedures should ensure that the employees, who prepare
the FFRs, are familiar with the cost principles of OMB Circular A-122.

IN-KIND CONTRIBUTIONS
During our site visit, BSO provided documentation for in-kind contributions for ushers
and guest artists. The documentation included names of volunteers and the number of
hours donated, however, it did not include an explanation of the basis for the valuation of
the services provided. Volunteer services and donated property or space must be documented
and their value determined according to the principles set out in the NEA General Terms and
applicable OMB Circulars. NEA’s Instructions for In-Kind (Third-Party) Contributions
states in part:

            If you include in-kind, third-party contributions or donations as part of your match,
            they must be valued at rates consistent with those paid for similar work within your
            organization or rates must be consistent with those paid by other employers for
            similar work in the same labor market.


We recommend the BSO develop written policies and implement procedures to ensure that
in-kind contributions are adequately documented as required by NEA’s General Terms
and OMB Circulars A-110 and A-122.

ACCOUNTING POLICIES AND PROCEDURES
During our site visit, BSO provided us with a copy of its accounting policies and
procedures. However, the policies did not include guidance for the management of
federal grant awards. OMB Circular A-110 subpart C 21(b)(6) states that recipients of
federal awards should have:

            Written procedures for determining the reasonableness, allocability and
            allowability of costs in accordance with the provisions of the applicable
            Federal cost principles and the terms and conditions of the award.

We are recommending that BSO’s develop written policies relating specifically to
Federal grants including guidance on financial and grant management, internal controls,
reporting and determining allowable and allocable costs. BSO could also incorporate


1
    Formerly, the Financial Status Report.


                                                  3
publications such as the NEA General Terms, NEA’s Financial Management Guide for
Non-profit Organizations, and applicable OMB Circulars.

Documenting such guidance is beneficial to the organization in the event of personnel
changes.

DEBARMENT AND SUSPENSION PROGRAM
BSO did not have policies and procedures in place to ensure that contractors or recipients
were not debarred or suspended prior to the payment or award of Federal funds. NEA’s
General Terms and Conditions states:

          You must comply with requirements regarding debarment and suspension
          in Subpart C of 2 CFR part 180, as adopted by the Arts Endowment in Title
          2 CFR, Chapter 32, Part 3254.

Subpart C of 2 CFR part 180 states in part:

          You must verify that the person with whom you intend to do business is not
          excluded or disqualified. You do this by:

             (a) Checking the EPLS2; or
             (b) Collecting a certification from that person; or
             (c) Adding a clause or condition to the covered transaction with that
                 person.

We are recommending that BSO develop and implement written procedures to ensure
that contractors and recipients are not parties on the debarment and suspension list.

SECTION 504 SELF-EVALUATION
BSO did not have the required Section 504 self-evaluation on file. As noted in NEA’s
General Terms, “A Section 504 self-evaluation must be on file at your organization.” A
Section 504 Self-Evaluation Workbook, which can be completed online, is available at
www.arts.gov/about/504Workbook.html.

Section 504 of the Rehabilitation Act of 1973, as amended, provides for equal
opportunity to enter facilities and participate in programs and activities. It does not
require that every part of every facility or program be accessible. The important
considerations are that individuals with disabilities have the same opportunities in
employment, the same opportunities to enter and move around in facilities, the same
opportunities to communicate and the same opportunities to participate in programs and

2
    Information may be obtained on parties that are debarred or debarred from receiving Federal funds from
    the General Services Administration (GSA) Excluded Parties List System web site at:
    https://www.epls.gov.




                                                     4
activities as non-disabled people. Further, it is important to offer employment, programs,
and services in settings that are integrated rather than to segregate individuals with
disabilities with special programs.

We are recommending that BSO conduct a Section 504 self-evaluation to ensure
compliance with the Rehabilitation Act of 1973, as amended and provide a copy to the
OIG. A copy of the evaluation must be on file at the organization and reviewed for each
subsequent grant award to ensure compliance. (A copy of the self-evaluation will be
provided to NEA’s Office of Civil Rights/EEO).

EXIT CONFERENCE
An exit conference was held with BSO’s officials on March 1, 2011. Subsequent to our
site visit, a telephone exit conference was held with BSO officials on September 7, 2011.
BSO officials concurred with our findings and recommendations.

                                   RECOMMENDATIONS
We recommend that BSO:


       1. Provide documentation to support the questioned salaries and fringe benefits of
          $50,000. BSO provided documentation addressing this finding; however, the
          documentation will be submitted to Management for a final decision. Based on
          Management decision, we will determine if any refund is due to NEA.

       2. Develop written policies and implement procedures to ensure that individual
          personnel activity reports are maintained, if required, by NEA General Terms and
          Conditions.

       3. Develop written policy and implement procedures to ensure that only allowable
          costs are reported on its Final Financial Report3. Those procedures should ensure
          that the employees, who prepare the FFRs, are familiar with the cost principles of
          OMB Circular A-122.

       4. Develop written policies and implement procedures to ensure that in-kind
          contributions are adequately documented as required by NEA’s General Terms
          and OMB Circulars A-110 and A-122.

       5. Develop written policies relating specifically to managing Federal grants.

       6. Develop and implement written procedures to ensure that contractors and
          recipients are not parties on the debarment and suspension list.


3
    Formerly, the Financial Status Report.


                                               5
7. Conduct a Section 504 self-evaluation to ensure compliance with the
   Rehabilitation Act of 1973, as amended and provide a copy to the OIG.




                                      6
                                                          Appendix I



                           Baltimore Symphony Orchestra
                            Grant Number 09-3100-7203



Total Outlays:                                                     $3,263,044
       Less: Unallowable Cost                                          (3,315)
               Expenditures Outside of the Grant Period                (6,899)
Adjusted Total Outlays                                              3,252,830
NEA Share                                                             (75,000)
Subtotal                                                            3,177,830
Baltimore Symphony Orchestra - Matching Requirement                   (75,000)
Amount in Excess of the Matching Requirement                       $3,102,830




                                          7
